 t\ StlV1c'£s.




('~
~~~~"~~
                                           DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                      OFFICE OF AUDIT SERVICES
                                                     233 NORTH MICHIGAN AVENUE
                                                       CHICAGO, ILLINOIS 60601
                                                                                                                         REGION
                                                                                                                          OFFICE
                                                                                                                                  V
                                                                                                                                 OF
                                                                                                                     INSPECTOR GENERAL



                                                            March 18, 2009




           Report Number: A-05-09-00045

           Mary Burns
           Chief Executive Officer
           Miami Valley Child Development Centers, Inc.
           215 Horace Street
           Dayton, Ohio 45402-8318

          Dear Ms. Burs:

          Enclosed is the U.S. Department of                        Health and Human Services (HHS), Office ofInspector
          General (OIG), final report entitled "Audit of                     Head Star Matching Costs for the Period
          Januar 1,2006, Through December 31,2007." We wil forward a copy of                             this report to the
          HHS action offcial noted on the following page.

          Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
          available to the public to the extent that information in the report is not subject to exemptions in
          the Act. Accordingly, this report wil be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please direct them to the HHS action
          officiaL. Please refer to report number A-05-09-00045 in all correspondence.

                                                                 Sincerely,



                                                              ~(1~
                                                                 RegiOn~~~~~tor General
                                                                   for Audit Services


          Enclosure
Page 2 - Ms. Mary Burs

Direct Reply to HHS Action Official:

Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Deparment of   Health and Human Services
Region V
233 North Michigan Avenue, Suite 400
Chicago, Ilinois 60601
Department of Health and Human Services
                           OFFICE OF
        INSPECTOR GENERAL




    AUDIT OF HEAD START
   MATCHING COSTS FOR THE
    PERIOD JANARY 1, 2006,
 THROUGH DECEMBER 31, 2007

    MIAI VALLEY CHILD
 DEVELOPMENT CENTERS, INC.




              ~ SERVICes
                                 Danel R. Levison
       'i~~~ ~                   Inspectr General



       ~~ :;
       ~  JI?
        .,~
             E                      March 2009
                                   A-05-09-00045
          ;¿q¡;áia
                              Office of Inspector General
                                                        htt:// oig.hhs.gov




The mission ofthe Offce of    Inspector General (DIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carring out their
respective responsibilties and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and effciency throughout HHS.

Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations

The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, DI utilzes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local
                                                                                                                    law
enforcement authorities. The investigative efforts of                            01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Offce of Counsel to the Inspector General (OCIG) provides general    legal services to DIG,
rendering advice and opinions on HHS programs and operations and providing all
                                                                                   legal support
for DIG's internal operations. OCIG represents DIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.



 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of GAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. Federal regulation 45 CFR part 1310.12(a), effective
June 24, 2007, eliminated certain transportation costs that were previously allowable for
classification as in-kind contributions. However, ACF Program Instruction ACF-PI-HS-07-04,
dated June 27, 2007, instructed ACF regional offices to consider giving grantees that are
significantly impacted by this change a one-year (partial) waiver of Head Start’s non-Federal
share requirement.

The Miami Valley Child Development Centers, Inc. (grantee) reported Head Start costs totaling
$22,311,762 for its fiscal year (FY) 2006 (January 1, 2006, through December 31, 2006) and
$20,787,602 for FY 2007 (January 1, 2007, through December 31, 2007). Of these costs, the
grantee reported in-kind contributions totaling $4,749,218 for FY 2006 and $3,299,607 for
FY 2007 as part of its share of the required 20-percent match. The grantee requested and the
ACF Region V office approved a partial waiver of the 20-percent match for FY 2007 on
April 21, 2008.

OBJECTIVE

Our objective was to determine whether the grantee reported costs that met the Federal program
requirements for the 20-percent matching share and allowable in-kind contributions claimed for
FYs 2006 and 2007.

SUMMARY OF RESULTS

The grantee reported costs that met Federal program requirements for the matching share and
allowable in-kind contributions claimed for FYs 2006 and 2007. The grantee reported allowable
in-kind contributions for volunteer services, facility space, and donated items that met the 20-
percent matching share requirement for FY 2006. For FY 2007, the grantee provided 16 percent


                                                i
in matching share costs but complied with the matching share requirements because the ACF
Region V office approved the Federal waiver request related to the 20-percent matching share
and the elimination of certain transportation costs as in-kind contributions.




                                               ii
                                                  TABLE OF CONTENTS 

                                                                                                                       Page

INTRODUCTION...........................................................................................................1 


          BACKGROUND ..................................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................1 

               Objective ...................................................................................................1 

               Scope.........................................................................................................2 

               Methodology .............................................................................................2 


RESULTS OF AUDIT....................................................................................................2 





                                                                   iii
                                      INTRODUCTION 


BACKGROUND 


Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. Federal regulation 45 CFR part 1310.12(a), effective
June 24, 2007, eliminated certain transportation costs that were previously allowable for
classification as in-kind contributions. However, ACF Program Instruction ACF-PI-HS-07-04,
dated June 27, 2007, instructed ACF regional offices to consider giving grantees that are
significantly impacted by this change a one-year (partial) waiver of Head Start’s non-Federal
share requirement.

The Miami Valley Child Development Centers, Inc. (grantee) reported Head Start costs totaling
$22,311,762 for its fiscal year (FY) 2006 (January 1, 2006, through December 31, 2006) and
$20,787,602 for FY 2007 (January 1, 2007, through December 31, 2007). Of these costs, the
grantee reported in-kind contributions totaling $4,749,218 for FY 2006 and $3,299,607 for
FY 2007 as part of its share of the required 20-percent match. The grantee requested and
the ACF Region V office approved a partial waiver of the 20-percent match for FY 2007 on
April 21, 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the grantee reported costs that met Federal program
requirements for the 20-percent matching share and allowable in-kind contributions claimed for
FYs 2006 and 2007.




                                                1

Scope

Our review included costs reported for the period January 1, 2006, through December 31, 2007.
We did not review the overall internal control structure of the grantee. We limited our internal
control review to obtaining an understanding of the procedures used by the grantee to document
compliance with Federal requirements for the 20-percent matching share of costs and in-kind
matching contributions.

We reviewed three months of sampled in-kind contributions totaling $930,816 from FY 2006
and $332,785 from FY 2007. In each of the three months, we reviewed sampled volunteer
services, facility space, and donated items claimed as in-kind contributions in Montgomery,
Clark, and Madison Counties.

We conducted fieldwork at the grantee’s office in Dayton, Ohio in November 2008.

Methodology

To accomplish the objective, we:

   •	 reviewed applicable laws, regulations, and guidelines;

   •	 reviewed the most recently completed triennial review of the grantee;

   •	 reviewed correspondence with the ACF Region V Office related to non-Federal matching
      costs;

   •	 gained an understanding of the grantee’s accounting system;

   •	 reviewed sampled invoices, journal entries, and trial balances;

   •	 reviewed costs claimed and supporting documentation for sampled cost categories;

   •	 reconciled the final financial status report to the grantee’s accounting records; and

   •	 reviewed sampled costs for allocability, reasonableness, and allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

The grantee reported costs that met Federal program requirements for the matching share and
allowable in-kind contributions claimed for FYs 2006 and 2007. The grantee reported allowable


                                                2

in-kind contributions for volunteer services, facility space, and donated items that met the 20-
percent matching share requirement for FY 2006. For FY 2007, the grantee provided 16 percent
in matching share costs but complied with the matching share requirements because the ACF
Region V office approved the Federal waiver request related to the 20-percent matching share
and the elimination of certain transportation costs as in-kind contributions.




                                               3

